No. 20-565

IN THE
SUPREME COURT OF THE UNITED STATES

George Matthews and Nina Matthews
Petitioners,
vs.
David Merbaum and Andrew Becker

Respondents.

On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Eleventh Circuit
PETITIONERS OBJECTION TO RESPONDENTS' MOTION FOR DAMAGES
FOR FRIVOLOUS APPEAL PURSUANT TO RULE 42

George Matthews
Nina Matthews
6038 Katie Emma Drive
Powder Springs, Georgia 30127
Tel.: 404-213-8324
E-Mail: matthews.6038@yahoo.com
Pro-Se Petitioners

IN THE UNITED STATES SUPREME COURT

George Matthews and
Nina Matthews

Petitioners

Case Number:
20-565

David J. Merbaum and
Andrew J. Becker,

Appellees - Respondents

PETITIONERS OBJECTION TO RESPONDENTS' MOTION FOR DAMAGES
FOR FRIVOLOUS APPEAL PURSUANT TO RULE 42

COMES NOW, Petitioners George Matthews and Nina Matthews
("Petitioners") who object to David J. Merbaum and Andrew J. Becker
("Respondent") moton pursuing damages and fees pursuant to Sup. Ct. R. 42.

FACTUAL BACKGROUND
Basis of Original Dispute

1. Petitioners George Matthews and Nina Matthews (hereinafter identified as
The Mathews) hired Attorneys David Merbaum and Andrew Becker of
Merbaum Law Group (hereinafter identified as The Attorney's). Attorneys
filed a lawsuit against State Farm Fire and Casualty Company (hereinafter

1

identified as State Farm) for breach of contract and bad faith after their
home was damaged [Matthews v State Farm„ Civil Action File No.
1:10-cv-01641].
While in the discovery phase of Matthews v. State Farm Attorneys filed a
Motion to Withdraw from the case. The District Court held a motions
hearing on their withdrawal on October 25, 2010. Attorneys argued they
were owed almost $20,000 before Judge Willis Hunt (Motions Hearing
Matthews v. State Farm , No. 1:10-cv-01641, October 25, 2010 Tr. 41).
Attorneys acknowledged in Open Court that they had sent a letter to the
Matthews stating if the Matthews did not oppose their withdrawal from
Matthews v. State Farm that they would only owe $500. Attorneys also
acknowledged that they had already been paid $2,200 by the Matthews.
Judge Hunt entered instant orders which stated the parties were to first
attempt reconciliation and attorneys were to agree to a contingency contract
as opposed to a fee based contract . The order also stated that should
attorneys decide to withdraw from Matthews v. State Farm they could only
collect the $500 which was also identified by the letter. The District Court
also stated Attorneys could not pursue the Matthews for additional money
other than the out-of pocket costs of $500 (Motions Hearing Matthews v.
State Farm , Civil Action File No. 1:10-cv-01641, October 25, 2010 Tr. 41).'

1 It was not until after the Matthews were sued by Merbaum Law Firm did they
identify that the missing orders were contained in the certified transcript. However
it was not filed to the District Court until 2012 which was after the Matthews v.

2

Attorneys back out of their decision again filing to withdraw
Attorneys indicated they would reconcile but never acted in good faith.
Judge Hunt entered an order for the attorney's decision to withdraw on
January 4, 2011, The order specifically referenced "Plaintiffs' George and
Nina Matthews did not oppose the withdrawal of their attorneys" which
referenced the letter for $500 . (Matthews v. State Farm Civil Action File No.
1:10-cv-01641, N.D. Ga, January 5, 2011).
Shortly after being released from the case attorneys began violating the order
refusing to accept the District Court granted only $500.
Attorneys file Proof of Claim in US Bankruptcy Court to which they were
not entitled
9. On August 19, 2015 attorneys filed Motion to Allow Late Proof of Claim
seeking to collect almost $20,000 which the District Court had heard and
denied in 2010 (US Bankruptcy Court N.D. Ga, Doc 57, August 18, 2015 p.
5-6).2
10.Attorneys were aware of the penalties for making a false claim based on the
signed Proof Claim, however David Merbaum still signed the document
which warned the penalty for presenting a fraudulent claim and that is a fine
of up to $500,000 or imprisonment for up to 5 years, or both. Pursuant to 18

State Farm case was ruled for State Farm on appeal (Matthews v. State Farm
(Docket Report) No. 1:10-cv-01641, N.D. Ga, Doc 103, April 11, 2012).
2 US Bankrupcy Court Doc 57 is mislabeled in the court docket as Motion to Extend Time but this is
incorrect. The actual documents posted behind this incorrect label filed by Attorneys are Part
1)Motion to Allow Late Filed Claim and 2)Exhibit Proof of Claim

3

U.S.0 §§ 152 and 3571 (Merbaum Law Group v. George E Matthews III, No.
11-63910-BEM, US Bankruptcy Court, N.D. Ga, August 19, 2015)
11.The Bankruptcy Court granted attorneys 19,928.83 as unsecured creditors
for which it was a violation under OCGA 15-19-14. The Bankruptcy Court
also ordered Nina Mathews released to face Merbaum Law Group in Cobb
Superior Court for a case the District Court had already heard and ordered
$500.
Attorneys pivot their claim for attorney fees which had already been
heard by the District Court to the State Court
12.In August 2017 Cobb Superior Court entered judgment against Nina
Matthews for $39,902.66 which was comprised of a principal amount of
$22,579.08 (attorney fees and expenses) and $17.323.58 for interest and late
fees.
13.0n December 12, 2019 Judge Reuben Green dismissed Merbaum Law Group
v. Nina Matthews without prejudice (Merbaum Law Group v. Nina
Matthews, No.15-1-3498-51, Cobb Superior Court Ga, December 19, 2019,
Doc #260 ). Attorneys did not refile their case to this court. At this point the
statute of limitations would have made the re-filing action a moot issue.
Motion for Contempt filed against attorneys to the District Court
14.In January 2019 Matthews sent a letter to Judge Steve Jones of the District
Court providing evidence that insurance fraud had occurred on the Matthews
v. State Farm case. The letter also informed Judge Jones that the Matthews

4

prior Attorneys David Merbaum and Andrew Becker appeared to be involved
in leading a retaliation by filing a false lawsuit in Cobb Superior Court.
In July 2019 the Matthews filed a Motion for Contempt against their prior
attorneys David Merbaum and Andrew Becker and also filed a Motion to
Recuse Judge Jones based on the extrajudicial information he had received in
the Matthews letter.
When the Motion for Contempt was filed to the District Court the court did
not open a new case or order a show cause to David Merbaum and Andrew
Becker. Judge Jones entered a decision to deny both motions filed by the
Matthews (Matthews v. State Farm No. 1:10-cv-01641, N.D. Ga, Doc #116
ORDER). David Merbaum and Andrew Becker were also never identified as a
party to the Matthews v. State Farm case which is where Judge Jones
entered his decision.
The Matthews appealed the decision of the District Court.

ARGUMENT AND CITATIONS TO AUTHORITY

The petition for certiorari filed before this Court is a factual account
supported by evidence and appropriate statutes. Each argument made to
this Court by Petitioners has been made in good faith.
The Respondents Motion For Damages and Frivolous Appeal Pursuant to
Rule 42 has been brought before this court in bad faith and is frivolous.

5

"An appeal is frivolous if the results are obvious, or the arguments of error
are wholly without merit." Maisano v. United States, 908 F.2d 408, 411 (9th
Cir. 1990) (citation omitted). To be frivolous, an claim must be so clearly
untenable or manifestly insufficient that its character may be determined by
a bare inspection of the record, without argument or research.
The Respondents have excluded significant detail in their Motion for
Damages which if revealed expose that their filing to sanction the Matthews
was frivolous.
Respondents Case was dismissed in Cobb Superior Court and was not
upheld as the attorneys have claimed before this Court

Specifically Respondents have excluded the fact that their case before Cobb
Superior Court was dismissed without prejudice and never re-filed.
Petitioners owe nothing to Respondents David Merbaum, Andrew Becker or
Merbaum Law Group.
The Respondents have excluded the outcome of their filing before Cobb
Superior Court. Merbaum Law Group v. Nina Matthews was dismissed from
Cobb Superior Court sua sponte which means it was Cobb Superior Court
who exercised its power to dismiss the case and not the Plaintiffs. The
dismissal of a case sua sponte also means that the court has stepped out of
its passive role in the litigation process and taken action to ensure
,-,

proceedings are fair and proper (Cobb Superior Court Cobb County State of

6

Georgia, No. 15-1-3498-51, December 12, 2019, Doc #260, Final Order
Dismissing Case Without Prejudice).
24.0CGA 9-11-41, which governs dismissal of actions, contemplates both
voluntary dismissals upon plaintiffs motion of stipulation, pursuant to
OCGA 9-11-41(a), and involuntary dismissals pursuant to OCGA 9-11-41(b)
for, inter alia, the "failure of the plaintiff to....comply with...any order of
court." The trial court's sua sponte dismissal order does not specify under
which it operates, but our Supreme Court has found that a sua sponte
dismiss may function as an involuntary dismissal. Such an involuntary
dismissal is authorized by OCGA 9-11-41(b)")(emphasis supplied), citing
Cramer, Inc. v. Southeaster Office Furniture Wholesale Co., 171
Ga.App.514,515(1), 320 S.E.2d 223 (1984)(where party made no formal
motion to dismiss, this Court found that "while it is true that OCGA
9-11-41(b) contemplates a motion by a defendant, the court may exercise
inherent power to dismiss sua sponte)(citations omitted). Although OCGA
9-11-41(b) imposes certain requirement for its application, neither party
objected or moved for reconsideration of its dismissal.
25. The dismissal of a lawsuit generally deprives the trial court of jurisdiction to
take further action in a case. A dismissal "deprive[s] the trial court of
jurisdiction and [leaves' the parties in the same position as if the suite had
never been filed." (Citation omitted.) Lakes v. Marriott Corp., 264 Ga. 475,
478, 448 S.E.2d 203 (1994).

7

26.Attorneys David Merbaum and Andrew Becker and Merbaum Law Group
know or should understand the ramifications of Cobb Superior Court's action
when their case was dismissed and the impact of their decision not to re-filed
their case. Effective December 12, 2019 Cobb Superior Court divested itself
of jurisdiction to take further action on Merbaum Law Group v. Nina
Matthews.
27.Attorneys did not re-filed their case or file an appeal. In fact Attorneys took
absolutely no legal action after Cobb Superior Court dismissed their case
without prejudice. The claims by Respondents before this Court that
somehow their case was preserved or upheld are false (Cobb Superior Court
Cobb County State of Georgia, No. 15-1-3498-51, December 12, 2019, Doc
#260, Final Order Dismissing Case Without Prejudice).

Respondents were not identified by the District Court as Defendants to the
action but were switched out after the case reached appeal
28. Respondents have not been forthcoming to this Court. They are aware they
were not identified as Defendants originally by the District Court. They were
added to the action only after the case was submitted to the appeal court.
29.In the conclusion of the decision entered by Judge Jones he concluded that
Matthews v. State Farm No. 1:10-cv-01641 was an old case which ended in
2012 and this statement was correct, however the Matthews filed a new case
against their former attorneys David Merbaum and Andrew Becker for a
Motion for Contempt.

8

The Mathews served by sheriff David Merbaum and Andrew Becker. David
Merbaum and Andrew Becker received the complaint from Fulton Sheriff.
(Matthews v. State Farm No. 1:10-cv-01641, N.D. Ga, Case Docket, Motion
for Contempt Against Attorneys David Merbaum and Andrew Becker with
Brief in Support, July 2, 2019, Doc 111).
David Merbaum and Andrew Becker filed their reply Response in Objection to
Motion for Contempt as Merbaum Law Group, PC and their reply was signed
by Plaintiffs' former attorneys David Merbaum and Andrew Becker
(Matthews v. State Farm No. 1:10-cv-01641, N.D. Ga, Case Docket, Response
in Objection to Motion for Contempt, July 17, 2019, Doc 115).
David Merbaum and Andrew Becker's objected that they should not be held
in contempt because they should not be held in violation based on Judge
Hunt's October 25, 2010 ex-parte hearing.
33.Although Judge Jones heard arguments by the Plaintiffs the Matthews and
David Merbaum and Andrew Becker of Merbaum Law Group Judge Jones
concluded that the Matthews argument was based on an old case Matthews
v. State No. 1:10-cv-01641).
34.1n Judge Jones conclusion he stated "Plaintiffs are cautioned and warned
that any future filings that a without a plausible legal basis in the case sub
judice (that has been closed since 2012) may be subject to monetary and other
sanctions deemed appropriate by this Court and applicable rules/law."
However, the Judge erred when he concluded the matter presented before

9

him was between the Matthews and State Farm who were the Defendants in
the original case which ended in 2012 ( Matthews v. State Farm No.
1:10-cv-01641)
35.Additionally State Farm's attorneys are identified on Matthews v. State
Farm as Mark Dietrichs and Kathleen Marsh and they were not served by
the Matthews nor did not they file any reply to the court.
36. The Matthews filed an appeal to the District Court because of the errors on
the case and served David Merbaum and Andrew Becker who represented
Merbaum Law Group.
37.When the Matthews became aware that David Merbaum and Andrew Becker
representing Merbaum Law Group had not filed an appearance into the case
or any response they contacted the Eleventh Circuit Court of Appeal. Shortly
after the appeal court was notified the court terminated State Farm as the
Defendants on the appeal action and added David Merbaum and Andrew
Becker of Merbaum Law Group as the Interested Party - Appellee. This
action removed the original Defendants State Farm for which Judge Jones
had entered his decision. George Matthews et al v. Andrew Becker, Docket
Report, No. 19-15001, shows: State Farm and Fire & Casualty Company
status as Terminated: 02/11/2020).
38.The result of the Eleventh Circuit COA action meant that Plaintiffs
Matthews were not appropriately appealing the decision as entered by the
District Court because the Defendants were replaced with David Merbaum

10

and Andrew Becker which was not the same case as Matthews v. State Farm.
The action taken by the Eleventh Circuit COA to remove the Defendant State
Farm resulted in the Eleventh Circuit COA being presented with a different
argument than what Judge Jones had entered a decision on.
It was alarming that the Eleventh Circuit thought it appropriate to create an
appeal for an entirely different Defendant once the case reached the appeal
court which. (Matthews v. State Farm No. 1:10-cv-01641, N.D. Ga, December
11, 2019, Doc 117)
When the Eleventh Circuit COA sent out the original Briefing Notice it was
sent to Defendant State Farm which was the wrong party. On February 11,
2020 amd re-noticed the appropriate party which had responded to the
Motion for Contempt in the District Court which was David Merbaum and
Andrew Becker of Merbaum Law Group (Matthews et al v. Andrew Becker
(Docket Report) No. 19-15001, Briefing Notice to David Merbaum and
Andrew Becker, February 11, 2020).
41.This restarted the court rule which required attorneys to file into the case
within 14 days. Pursuant to 11th Cir. R. 46-5 All attorneys (except court
appointed attorneys) must file an Appearance of Counsel Form in each
appeal in which they participate within 14 days after notice is mailed by the
clerk. Additionally the 11th Cir. R. 46-6 outlines the Clerk's Authority to
Accept Filings. (a) Filings from an Attorney Who Is Not Authorized to
Practice Before this Court. (1) Subject to the provisions of this rule, the clerk

11

may conditionally file the following papers received from an attorney who is
not authorized to practice before this court, unless the attorney has been
suspended or disbarred from practice before this court or has been denied
admission to the bar of this court. Attorneys were due to file an appearance
by February 26, 2020. The next day February 27, 2020 David Merbaum and
Andrew began filing into the case violating without making an appearance as
attorneys which violated 11th R. 46-5.
The Mathews filed a motion to the appeal court requesting they require
David Merbaum and Andrew Becker to adhere to the rule (Matthews et al v.
Andrew Becker, No. 19-15001, Motion to Disqualify Attorney's Filing
Certificate of Interested Persons Form Due to Failure to File an Appearance of
Counsel Form). Attorneys responded by filing an objection stating that they
would not file an appearance unless required by the appeal court. Attorneys
also filed a sanction against the Matthews for raising the issue that they
were not adhering to the rule. (Matthews et al v. Andrew Becker, No.
19-15001, Objection to Motion to Disqualify Attorney's Filing Certificate of
Interested Persons Form Due to Failure to File an Appearance of Counsel
Form with incorporated motion for sanctions).
The Eleventh Circuit COA denied the attorneys request to sanction but also
denied the Matthews motion and did not rise to require attorneys to sign an
entry of appearance in order to proceed before the court.

12

44. The appeal sent to the Eleventh Circuit COA was obviously flawed upon
arrival from the District Court. State Farm should not be allowed to use
Judge Jones conclusion in an future litigation because the Matthews did not
file a Motion for Contempt against State Farm. The Motion for Contempt
was filed against David Merbaum and Andrew Becker. As such the warning
entered by Judge Jones was entered in error. The conclusion entered by
Judge Jones was also not applicable to David Merbaum and Andrew Becker
of Merbaum because it was entered for Defendant State Farm. The
concerning issue before this court is that David Merbaum and Andrew Becker
have filed to use the flawed ruling by Judge Jones to sanction the Matthews.
45.Judge Jones ruling should not have been upheld, but overturned once it
reached the appeal court
Respondents statements unrelated to their Motion for Sanction

46. Petitioners have experienced a continuous barrage of harassment which
began shortly after the Respondents filed against the Matthews in Cobb
Superior Court. There is an ongoing investigation into the suspicious mail
incidents USPS. Petitioners fail however to see how this is related to the
Respondents motion for sanctions.
Conclusion
47.The Respondents have failed to demonstrate that the Petitioners filed a
frivolous appeal before this Court or in any other court.

13

The Respondents have also not demonstrated how Petitioners who have
adversely impacted them or delayed any legal options they have the right to
pursue.
Petitioners pray Respondents Motion for Damages is denied the $3,000
requested is also denied.

Dated This 31st day of January, 2021.

Respectfully submitted,

6kgaff:9/Li
Ge ge Matthews, pr se
6038 Katie Emma Drive
Powder Springs, Georgia 20127
Tel.: (404) 213-8324
E-Mail: matthews.6038@yahoo.com

if& Matthews, pro se
6038 Katie Emma Drive
Powder Springs, Georgia 20127
Tel.: (678) 231-7726
E-Mail: matthews.6038@yahoo.com

14

CERTIFICATE OF COMPLIANCE

The undersigned certifies that this document complies with the word or page
limit of Sup. Ct. R. 33 because this document contains 2920 words.

Dated This 1st day of February 2021.

Respectfully submitted,

G rge atthews, pro se
6038 Katie Emma Drive
Powder Springs, Georgia 20127
Tel.: (404) 213-8324
E-Mail: matthews.6038@yahoo.com

ma atthews, pro se
6038 atie Emma Drive
Powder Springs, Georgia 20127
Tel.: (678) 231-7726
E-Mail: matthews.6038@yahoo.com

15

